TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Continued Centralization of the Windows
                  Environment Would Improve Administration
                          and Security Efficiencies



                                      September 23, 2011

                              Reference Number: 2011-20-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


CONTINUED CENTRALIZATION OF THE                      rather than spending those funds to resolve the
WINDOWS ENVIRONMENT WOULD                            vulnerability.
IMPROVE ADMINISTRATION AND                           In addition, the IRS did not ensure that all
SECURITY EFFICIENCIES                                Windows computers connected to its network
                                                     were authorized and compliant with security
                                                     policy, putting the IRS at risk of security
Highlights                                           breaches. While the IRS had created standards
                                                     to prevent unauthorized computers from being
Final Report issued on                               connected to the network, it had not established
September 23, 2011                                   a central controlling authority to enforce
                                                     compliance with its policy.
Highlights of Reference Number: 2011-20-111
to the Internal Revenue Service Chief                WHAT TIGTA RECOMMENDED
Technology Officer.                                  The Chief Technology Officer should ensure
                                                     that: 1) an enterprise-wide governing body is
IMPACT ON TAXPAYERS
                                                     established to enforce Windows server group
The Internal Revenue Service (IRS) operates a        design criteria and ensure unauthorized
large computer network that includes about           Windows server groups are not created;
6,000 servers and 110,000 workstations using         2) planned shutdown of the noncentralized
Windows operating systems provided by the            groups of Windows servers is continued or
Microsoft Corporation. Proper implementation of      feasibility studies to collapse noncentralized
Microsoft Corporation Windows technology             Windows server groups are completed;
simplifies system administration and provides        3) standards to prevent computers from being
methods to strengthen and consistently secure        connected to the network without proper
computer systems. When IRS operations run            authorization and required compliance
efficiently and securely, taxpayer dollars and       documentation are implemented
data are preserved and protected.                    enterprise-wide; and 4) network scanning tools
                                                     are utilized to locate unauthorized computers on
WHY TIGTA DID THE AUDIT                              the IRS network, and adequate procedures are
This audit is included in our Fiscal Year 2011       developed and implemented to ensure they are
Annual Audit Plan and addresses the major            removed.
management challenge of Security. The overall        In its response to the report, the IRS agreed with
objective of this review was to determine            TIGTA’s recommendations and plans to take
whether the IRS has structured its Windows           appropriate corrective actions. However, the
environment to provide efficient and secure          IRS disagreed with TIGTA’s $1.2 million
management of Windows servers.                       outcome measure related to the maintenance of
                                                     obsolete computer equipment. TIGTA maintains
WHAT TIGTA FOUND                                     the appropriateness of the measure.
The IRS has not taken actions to continue
enforcing the centralization of its Windows
environment, which would simplify system
administration and achieve consistent identity
and authentication management that is required
by Federal regulations and IRS enterprise
architecture security principles. TIGTA found
three organizations that maintained groups of
Windows servers outside of the main centralized
group of Windows servers. The IRS spent
$1.2 million in contract fees to maintain obsolete
computer equipment in one of these groups,
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 23, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Continued Centralization of the Windows
                             Environment Would Improve Administration and Security Efficiencies
                             (Audit # 201120010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has structured its Windows environment to provide efficient and secure management of
 Windows servers. This audit is included in the Treasury Inspector General for Tax
 Administration Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Security.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                            Continued Centralization of the Windows Environment
                            Would Improve Administration and Security Efficiencies




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Actions Are Needed to Allow Active Directory to
          Simplify System Administration................................................................... Page 4
                    Recommendations 1 and 2: .............................................. Page 11

          Not All Windows Servers and Workstations Connected
          to the Network Reside in Authorized Domains ............................................ Page 12
                    Recommendations 3 and 4: .............................................. Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
          Continued Centralization of the Windows Environment
          Would Improve Administration and Security Efficiencies




                       Abbreviations

BSM             Business Systems Modernization
HSPD-12         Homeland Security Presidential Directive-12
IFS             Integrated Financial System
IRS             Internal Revenue Service
ISRP            Integrated Submission and Remittance Processing
MITS            Modernization and Information Technology Services
SAP             Systems, Applications, and Products
SOI             Statistics of Income
                         Continued Centralization of the Windows Environment
                         Would Improve Administration and Security Efficiencies




                                              Background

The Internal Revenue Service (IRS) operates a large computer network that includes about
6,000 servers1 and 110,000 workstations using Windows operating systems provided by the
Microsoft Corporation. During Fiscal Year 2005, the IRS
implemented Active Directory, a Microsoft Corporation
software system for administering and securing computer            Proper implementation of
networks. Active Directory manages the identities and            Active  Directory technology
                                                               simplifies system administration
relationships of computing resources that comprise a
                                                                   and provides methods to
network. It enables administrators to assign                     strengthen and consistently
enterprise-wide policies, deploy programs to many                 secure computer systems.
computers, and apply critical updates to an entire
organization simultaneously from a central, organized,
accessible database. It simplifies system administration and provides methods to strengthen and
consistently secure computer systems. The benefits of Active Directory’s centralized
management of computers and users include:
    •    Central location for network administration and security.
    •    The ability to scale up or down easily.
    •    Synchronization of directory updates across servers.
    •    The ability to design and deploy enterprise monitoring tools and security solutions.
    •    Centralized and consistent identity and authentication management.
The IRS’s previous network operating system was divided into obsolete and inefficient
boundaries, expensive to manage, and difficult to consistently secure. Active Directory supports
a centralized approach to system administration that enforces software and security policies
across the enterprise.
A forest is the outermost design element or boundary in an Active Directory implementation. As
a general rule, best practices dictate that the use of multiple forests for a single application or
business process should be avoided. Ideally, there should be only one forest in an organization
for maximum administration, cost, and security efficiencies. Because each forest is administered
separately, adding additional forests increases an organization’s management overhead.



1
 Servers are computers that carry out specific functions. For example, file servers store files, print servers manage
printers, and network servers manage network traffic.
                                                                                                              Page 1
                         Continued Centralization of the Windows Environment
                         Would Improve Administration and Security Efficiencies



A domain is an administrative partition within a forest to manage objects, such as users, groups,
and computers. The domain supports a number of core functions related to administration, such
as authentication and configuration management. Best practices dictate that the number of
domains created within a forest should also be minimized in order to minimize administrative
costs. Each additional domain in a forest increases management overhead, requires additional
computer hardware, and must have configuration and security policies applied separately.
Domains are further subdivided into organizational units, which are used to uniformly manage
administrative groupings of users, groups, and computers. Security settings are consistently
applied to all the computers in an organizational unit by linking the appropriate group policy.
Linking group policy to organizational units provides a centralized means to control and enforce
configuration and security policies. Any computer subsequently added to the organizational unit
would automatically receive the appropriate security settings.
In Fiscal Year 2006, the Treasury Inspector General for Tax Administration conducted an audit2
on the IRS’s progress to establish Active Directory enterprise-wide in accordance with industry
best practices. The IRS Active Directory Team established the IRS main production forest
(called the DS Domain) and intended that it would serve as the shared resource for centralized
administration and access control across the IRS enterprise. The Modernization and Information
Technology Services (MITS) Enterprise Operations organization maintains the IRS main
production forest.
The IRS Active Directory Team also created a forest design policy which stated that
application-specific or group-specific Active Directory forests would not be necessary or
desirable as a rule. However, the policy allowed IRS entities that could not delegate enterprise
administrative rights for reasons of security (e.g., entities that maintain law enforcement
information) to create their own forests rather than participate in the IRS main production forest.
Although the MITS organization never finalized this design policy, IRS policy states that the
MITS organization is responsible for establishing and managing the IRS Active Directory
network topology.3
The vast majority of IRS Windows computers and users are included in the IRS main production
forest, which contains a root domain, a test domain, and one large production domain. At the
time of our prior review, additional forests had been created for two IRS organizations (the
Office of Chief Counsel and Criminal Investigation) that needed greater security for protection
of law enforcement information and justified the need for separate forests. A forest called
Business Systems Modernization (BSM) was also created for the Integrated Financial System




2
  The Enterprise-Wide Implementation of Active Directory Needs Increased Oversight (Reference
Number 2006-20-080, dated May 9, 2006).
3
  Network topology is the layout pattern of interconnections of the various elements of a computer network.
                                                                                                              Page 2
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies



(IFS)4 because it was implemented before the IRS was ready to deploy the main production
forest. However, this system did not meet the IRS’s criteria for establishing a separate forest;
therefore, the IRS had agreed that consideration should be given to bringing it into the IRS’s
main production forest to achieve maximum efficiencies and security of IRS operations.
However, the BSM forest remains as a separate forest to date.
We reported that the IRS should enforce its Active Directory design standards because adding
unnecessary separate forests would increase the cost of implementing and maintaining Active
Directory and would make maintaining consistent security controls more difficult. Because the
new Active Directory Team and leadership were already aware of these implementation issues,
we made no recommendations to address the multiple forest issue.
This review was performed at the Detroit Computing Center in Detroit, Michigan; the Fresno
Campus5 in Fresno, California; the Ogden Campus in Ogden, Utah; the Office of Chief Counsel
in San Francisco, California; Criminal Investigation in Florence, Kentucky; and the Enterprise
Operations organization in Oakland, California, during the period October 2010 through
July 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
  The IFS manages the IRS’s $11.4 billion operating budget for administering tax payments, collection, and
enforcing tax laws.
5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 3
                          Continued Centralization of the Windows Environment
                          Would Improve Administration and Security Efficiencies




                                     Results of Review

Actions Are Needed to Allow Active Directory to Simplify System
Administration
Despite IRS plans to establish one main shared Windows administrative boundary (i.e., forest) to
achieve maximum administration, cost, and security efficiencies, Figure 1 shows the IRS
organizations, in addition to Enterprise Operations organization, that have established their own
forests for managing their Windows servers. Based on our review of IRS policy, industry best
practices for Windows environments, and the reasons for which the various forests were
established, we believe five of the eight IRS organizations were justified in establishing separate
forests.
   Figure 1: IRS Business Organizations That Maintain Active Directory Forests
                                     Number of        Number of
  IRS Business Organization           Forests       Windows Servers           Justified as Separate Forest?
 Enterprise Operations                     1                4,042             Yes; IRS main production forest
 IRS Development Forest                    1                 171               Yes; isolated forest for test and
                                                                                   development purposes
 Chief Counsel                             2                 449             Yes; contains law enforcement data
 Criminal Investigation                    1                 615             Yes; contains law enforcement data
 Computer Security Incident                1                 76               Yes; contains tools for scanning
 Response Center                                                               and managing vulnerabilities
                                                                                   that require isolation
 BSM                                       1                 24                              No
 Statistics of Income (SOI)                4                 92                              No
 Integrated Submission and                 9                 210                             No
 Remittance Processing (ISRP)
 TOTAL                                                     5,679
Source: IRS organizations provided the numbers of Windows servers in their inventories during the course of our
review. We provided the conclusion on whether the various forests were justified, based on our audit work.

Three IRS organizations, BSM, SOI, and ISRP, created 14 forests that did not meet MITS
organization criteria or industry best practices for establishing a separate forest and should be
merged into the IRS’s main production forest to achieve maximum administration efficiencies
and security of IRS operations.

                                                                                                           Page 4
                         Continued Centralization of the Windows Environment
                         Would Improve Administration and Security Efficiencies



In addition, users in the BSM, SOI, and ISRP organizations’ forests generally have multiple
logon accounts, which impede the IRS from establishing centralized and consistent identity and
authentication management in adherence with Homeland Security Presidential Directive 12
(HSPD-12) smart card6 logon requirements and IRS enterprise architecture security principles.
HSPD-12, signed by the President on August 27, 2004, established the requirements for a
common identification standard for identity credentials issued by Federal Government
departments and agencies to Federal employees and contractors for gaining physical access to
Federally controlled facilities and logical access to Federally controlled information systems.
IRS enterprise architecture security principles call for the identities and authenticators of as
many users as possible to be stored and managed in a centralized database. Therefore, solutions
should be found to consolidate the BSM, SOI, and ISRP organizations’ forests into the IRS main
production forest and require users to authenticate through it. The IRS main production forest is
already enabled for smart card logon, a Federal requirement that all of the IRS must work
towards.
Having the least number of forests in the IRS environment would achieve the maximum amount
of administration efficiencies and would result in costs savings by eliminating administrative
responsibilities from the 14 forests. The IRS would also incur significant transition and
implementation costs as the IRS attempts to get to this target state. As a result, we were unable
to specifically measure the savings expected to be achieved in the long run, since costs to
collapse existing forests may exceed savings in the short term, pushing out the return on
investment.

The BSM organization forest is obsolete and should be removed
The IRS contracted with the IBM Corporation to setup the BSM organization forest as a means
to authenticate users to the IFS application when it went into production in November 2004,
before the IRS main production forest was implemented. However, once the IRS main
production forest was implemented, efficiencies could have been achieved if BSM organization
servers were upgraded to Windows 2003, allowing the BSM organization forest to be merged
into the IRS main production domain. Currently, the BSM organization forest consists of
primarily legacy Windows 2000 servers, which are outdated and no longer supported by the
Microsoft Corporation. Patches are no longer issued for these servers, which remain a high
security risk.
In addition, the current method used to authenticate users to the IFS has an access vulnerability
that allows users and system administrators to remotely logon using an unsecured alternative
path. This remote logon access, intended to be used only in emergencies by system
administrators when no other access to the system is available, was being used periodically by


6
 In the IRS’s target architecture, the user identity and authenticator of each IRS employee will be stored on a smart
card and used to access IRS facilities and information systems in accordance with HSPD-12.

                                                                                                              Page 5
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies



users during their normal course of business. The remote logon software uses unencrypted
communication and allows potential attackers to get access to usernames and passwords by
listening on the network, which could lead to unauthorized access to the IFS. Further, the IFS
did not have audit logging features enabled, as required by IRS security policy. Therefore, an
attacker could gain unauthorized access to the IFS and steal or destroy financial records without
being detected. The BSM organization informed us that it recently enabled audit logging
features for the IFS application to mitigate this risk. Removing the BSM organization forest and
authenticating IFS users through the IRS main production forest would eliminate this remote
access vulnerability.
Further, the BSM organization forest impedes the IRS’s goals for achieving consistent identity
management user smart card access, in compliance with HSPD-12 requirements, because two
logon accounts must be maintained for IFS users in the BSM organization forest and in their
home forests.
The annual cost for the IBM Corporation contract is currently about $1.2 million. The original
contract, made in Fiscal Year 2001, had been extended several times since Fiscal Year 2006;
however, the extensions had not included upgrades to the existing equipment. The Microsoft
Corporation ended support for Windows 2000 servers in July 2010; consequently, the IRS has
spent $1.2 million from July 2010 to July 2011 to maintain obsolete equipment rather than
spending those funds to resolve the vulnerability.
The BSM organization staff believes the best and least costly alternative for retiring the BSM
organization forest is a Systems, Applications, and Products (SAP) in Data Processing Secure
Network Communications7 solution. However, this product has not yet been validated by the
National Institute of Standards and Technology as Federal Information Processing Standards
140-2 compliant. The Federal Information Processing Standards Publication 140-2 specifies the
security requirements that cryptographic8 technologies must meet as standards for protection of
sensitive or valuable data within Federal information systems. The National Institutes of
Standards and Technology validates cryptographic technologies as meeting the standard, and
precludes the use of unvalidated cryptographic technologies within Federal systems. The BSM
organization informed us that it expects the SAP Secure Network Communications solution to
achieve National Institute of Standards and Technology validation by December 2011, and to
have it implemented by March 2012. The IRS approved funding to implement this solution in
July 2011.



7
  SAP systems include basic security measures, which include the SAP authorization concept and user
authentication based on passwords. With Secure Network Communications, SAP customers can extend SAP system
security beyond these basic measures to include the additional protection offered by stronger authentication
methods, by encryption, and by single logon.
8
  Cryptography refers to the transformation of ordinary text (plaintext) into coded form (ciphertext) by the use of
encryption formulas and algothirims.
                                                                                                           Page 6
                     Continued Centralization of the Windows Environment
                     Would Improve Administration and Security Efficiencies



The effect to the IRS of allowing this separate BSM organization forest to remain includes:
   •   Increased security vulnerabilities because patches are no longer issued for Windows 2000
       servers.
   •   The existing vulnerabilities in the legacy authentication method.
   •   The inability to leverage the centralized administration of configuration and access
       controls offered by the IRS main production domain.
   •   The dual logon environment impeding the IRS’s goal of consistent identity management
       for complying with HSPD-12 requirements and IRS enterprise architecture security
       principles.

The four SOI organization forests are not needed to achieve stated goals of
security and availability
The SOI organization collects, analyzes, and disseminates information on Federal taxation to
various organizations engaged in economic and financial analysis and to the general public. The
IRS Chief Technology Officer authorized the SOI organization to manage its own budget,
infrastructure, and operations for the stated purpose of providing adequate security and
availability of the statistical data it processes. When the SOI organization upgraded from its
multiple Windows NT domain structure in January 2007, it installed a similar Active Directory
configuration consisting of four separate forests, called SOIWORLD, SOINET, SOIPIN, and
LIN. However, an implementation of four forests was not needed to achieve SOI organization
goals of access control, data protection, and data availability. Rather, SOI organization goals for
security and availability could be better achieved within the IRS main production forest.
SOI organization officials believe the four forests were needed to provide for the security
principle of separation of duties. SOI organization officials indicated that if they were to
collapse the four forests into one forest, several administrators would have access to all data
within the entire SOI organization. They also stated that, because the administrators of each of
the four forests only have administrative privileges over their respective forests, they can
eliminate potential unauthorized access to sensitive data maintained in the other forests. In
addition, the users of the different forests are also maintained in separated or segmented
populations throughout the four-forest design. For example, the users of the LIN forest are
mainly auditors, while the users of the SOIWORLD forest are comprised mostly of researchers.
SOI organization officials believe this supports a clear and unambiguous need for separation of
privileges within the SOI organization.
Separate forests are neither necessary nor sufficient to protect data from unauthorized access.
Rather, sensitive resources should be protected with multiple levels of access controls with role
separation implemented to ensure that an administrator with permission to manage one level of
access control does not have permission to manage all levels. Rather than multiple forests,

                                                                                              Page 7
                     Continued Centralization of the Windows Environment
                     Would Improve Administration and Security Efficiencies



domains within the common IRS Active Directory forest should be created to contain SOI
organization resources, provide distinct administrative boundaries, and allow for customization
of SOI organization-specific requirements while still adhering to IRS enterprise architecture
security principles.
Further, SOI organization users have dual logon accounts, which create problems for the IRS
moving towards an HSPD-12 smart card environment. SOI organization users possess an
account in an SOI organization forest, to which they log on for performing their SOI
organization duties, and an account in the IRS main production domain to which they log on for
using common IRS services such as email and other service-wide resources. In order to advance
the goal of consistent identity management and to maximize the value of the IRS Active
Directory infrastructure, the SOI organization users’ IRS main production logon credentials
should be used as their sole Active Directory logon credentials for accessing SOI organization
resources.
The SOI organization’s implementation of four forests has resulted in inefficiencies relating to
extra equipment, extra staff and man-hours to manage the additional equipment, the inability to
take advantage of centralized management processes and technical solutions, and failure to meet
the principles of the IRS enterprise architecture.

The nine ISRP organization forests cause management inefficiencies and
unnecessary equipment
The ISRP application transcribes and formats data from paper tax returns and related documents
for export to other IRS systems by key entry operators. It also captures check images for
archiving. The IRS contracts with Lockheed Martin to manage the ISRP organization system
code, though the IRS owns and manages the computer equipment and network that the ISRP
organization system uses to perform its daily operations. In Fiscal Year 2003, when the ISRP
organization converted from Windows NT to Active Directory, ISRP organization system
administrators set up separate production forests at each of its six geographical sites where ISRP
application processing occurs, generally to mirror how the former Windows NT domains were
set up. They also implemented three forests for development, testing, and training. The ISRP
organization staff stated that security would have to change if they went to a different
configuration and, therefore, they stayed as close as possible to the current configuration.
While we agree that development and testing should generally be separated from a production
environment, the ISRP organization did not utilize the administration efficiencies offered by
consolidating its Active Directory infrastructure where possible. Minimizing the number of
forests as much as possible would have allowed administration and security control from a
centralized location and potentially realized significant savings by reducing duplicate support
requirements. MITS organization staff informed us that the ISRP organization Windows Active
Directory environment was designed by the ISRP contractors without consultation with the
MITS organization staff who were charged with implementing the IRS’s main production forest

                                                                                            Page 8
                         Continued Centralization of the Windows Environment
                         Would Improve Administration and Security Efficiencies



in Fiscal Year 2005. In addition, the ISRP contractors have not ensured the ISRP Windows
Active Directory environment has remained valid over time. Further, ISRP organization users
have dual logon accounts, one for accessing the ISRP application and another for accessing the
IRS main production forest, which creates problems for the IRS moving towards an HSPD-12
smart card environment and centralized and consistent identity and authentication management
in adherence to IRS enterprise architecture security principles.
In addition, we identified inefficiencies related to network equipment at two ISRP production
sites.
    •   Enterprise Networks organization staff at one of the six ISRP organization production
        sites described unneeded layers of ISRP routers and switches that provided an appearance
        of a separate ISRP network, although no real distinction between the ISRP network and
        the IRS network exists (i.e., they are one and the same). The Enterprise Networks
        organization staff took action to upgrade the ISRP routers and switches at that site
        because they often caused downtime and were noncompliant with IRS configuration
        requirements. At that time, the Enterprise Networks organization staff eliminated one
        router that was unnecessary. The Enterprise Networks organization staff believed this
        action was necessary because the ISRP vendor would not pay for the upgrade of
        equipment needed to meet IRS security requirements. This removal resulted in less
        downtime and the ability for the IRS to monitor that network components remain
        compliant with IRS standards.
        The Enterprise Networks organization staff advised us that the ISRP vendor also recently
        enabled Dynamic Host Configuration Protocol9 services on two ISRP servers, which was
        unnecessary since the ISRP organization could use the IRS’s Dynamic Host
        Configuration Protocol servers. The Enterprise Networks organization staff stated that,
        in general, the ISRP vendor claims it needs control over the network and its components
        in order to guarantee its performance under its contract. The Enterprise Networks
        organization staff believed efficiencies could be realized if local IRS staff were allowed
        to support and manage the network components at the other ISRP organization sites.
    •   Enterprise Networks organization staff at another ISRP organization production site
        advised us that ISRP organization routers and switches there have also introduced
        unnecessary complications to the network infrastructure, as well as introducing additional
        points of failure. The Enterprise Networks organization staff’s professional opinion was
        that the ISRP organization routers are unnecessary. The Enterprise Networks
        organization staff indicated that the switches are necessary but could easily be replaced


9
  A protocol for assigning dynamic Internet Protocol addresses to devices on a network. Dynamic addressing
simplifies network administration because the software keeps track of Internet Protocol addresses rather than
requiring an administrator to manage the task.
                                                                                                            Page 9
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies



        by IRS switches. This replacement would serve to flatten the network, improve
        management, and provide local technicians the ability to troubleshoot.
        The Enterprise Networks organization staff stated that it currently has no view into the
        ISRP organization network, including its routers and switches, or access to these devices.
        As a result, they are unable to assist the user community when trouble occurs. However,
        the Enterprise Networks organization staff has the responsibility to replace faulty routers
        and/or switches when ISRP organization contractors determine replacements are needed.
        This situation requires Enterprise Networks organization staff to rely on ISRP
        organization contractors to have completed thorough and competent troubleshooting
        before determining a replacement is needed. Further, the Enterprise Networks
        organization staff informed us that ISRP organization routers and switches have also
        caused additional, and unnecessary, complications to the workstation configurations. The
        Enterprise Networks organization staff stated that the ISRP organization network design
        is faulty in that it requires all workstations to be manually configured, resulting in a
        poorly designed version of load balancing.10 The Enterprise Networks organization staff
        believed the ISRP organization should be using Dynamic Host Configuration Protocol to
        configure network parameters on its workstations, alleviating the need to do this work
        manually that is resource intensive.
The ISRP organization Program Office staff advised us that the ISRP organization contract
expires in Fiscal Year 2012. The IRS should consider implementing changes to the ISRP
organization contract that would allow the IRS to improve on the current administration and
network inefficiencies caused by operating an application across multiple forests.
We believe the unnecessary separate BSM, SOI, and ISRP organizations’ forests exist because
the IRS did not finalize its policy for forest design nor enforce its Active Directory network
topology in compliance with its enterprise architecture security principles.
Inefficiencies related to extra forests include the installation of extra equipment, additional staff
required to manage the excess infrastructure, and the inability to centrally assign enterprise-wide
policies and apply critical updates, which impedes the IRS from achieving its goal of consistent
identity management and HSPD-12 requirements. Consolidating unnecessary forests would
allow administration and security control from a centralized location and potentially realize
significant savings by reducing duplicate support requirements.




10
  Load balancing is a computer networking methodology to distribute workload across multiple computers or other
resources to achieve optimal resource utilization, maximize throughput, minimize response time, and avoid
overload.
                                                                                                       Page 10
                     Continued Centralization of the Windows Environment
                     Would Improve Administration and Security Efficiencies



Recommendations
The Chief Technology Officer should ensure that:
Recommendation 1: The MITS organization establishes an enterprise-wide Active Directory
governing body that finalizes and enforces IRS Active Directory forest design criteria, develops
standards, oversees trusts, and ensures unauthorized forests or domains are not implemented in
the IRS.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       organization will establish an Active Directory governing body to finalize and enforce
       IRS Active Directory forest design criteria, standards, oversee trusts, and ensure
       unauthorized forests or domains are not implemented in the IRS.
Recommendation 2: The planned shutdown of the BSM forest is completed once the SAP
Secure Network Communications solution is in place. The SOI and ISRP organizations should
work with the MITS organization to perform a feasibility study to determine if the collapse of the
SOI and ISRP forests is practical and in the best interest of the IRS. If deemed in the best
interest of the IRS, the MITS organization should prepare plans with funding requirements and
potential completion dates to accomplish the collapse of one or both of these organizations’
forests.
       Management’s Response: The IRS agreed with this recommendation. The MITS
       organization will complete the shutdown of the BSM forest after the deployment of the
       SAP Secure Network Communications solution is in place. Additionally, the MITS
       organization will work with the ISRP and SOI organizations to study the costs, staffing,
       and technical issues involved in the collapse of these forests into the IRS main Active
       Directory forest. If it is deemed practical and in the best interest of the IRS and the
       business unit to collapse the forests, the MITS organization will work with the ISRP and
       SOI organizations to determine the project(s) and timeline to accomplish the work within
       overall project priorities and available funding. As it relates to the SOI forest, the IRS
       will address specific guidelines for Federal Statistical Agencies to protect the
       confidentiality of the data as set forth in the Confidential Information Protection and
       Statistical Efficiency Act, which was signed into law under Title V of the E-Government
       Act of 2002.
       Office of Audit Comment: The IRS did not agree with the outcome measure (see
       Appendix IV) relating to the expenditure of $1,200,000 in contract fees to maintain
       obsolete computer equipment in the BSM forest. In its response, the IRS stated that the
       computer equipment was required to support critical financial and accounting
       management functions and that these functions would have stopped had the monies not
       been spent. The IRS agreed that the computer equipment needs to be updated, and a plan
       has been formulated to do so in Fiscal Year 2012. However, we contend that the IRS

                                                                                          Page 11
                    Continued Centralization of the Windows Environment
                    Would Improve Administration and Security Efficiencies



       should have been aware of the July 2010 date when Microsoft ended its support for these
       types of computers, and that the IRS did not act in due diligence to formulate an update
       plan prior to that date in order to resolve the vulnerability caused by these obsolete
       computers. Therefore, the IRS’s expenditure of funds to maintain the obsolete computer
       equipment that put critical functions at risk rather than spending those funds to resolve
       the vulnerability was an inefficient use of resources.

Not All Windows Servers and Workstations Connected to the Network
Reside in Authorized Domains
IRS policy requires that all computers connected to the IRS network reside in an approved
domain, except for public web servers. Domains are groups of computers on a network within a
forest that are administered as a unit with common rules and procedures. Managing Windows
servers in Active Directory domains offers a centralized and efficient method for applying and
managing security controls on all computers residing in the domain.
In December 2008, the MITS Enterprise Operations organization created a standard in order to
prevent servers from being connected to the network without the proper authorization and
required compliance documentation, as well as prevent unauthorized domains from being
created. The Associate Chief Information Officer, Enterprise Operations organization, is
responsible for establishing, maintaining, and enforcing this standard for all Windows servers
connected to the IRS network. This standard authorizes the identification and reporting to the
Associate Chief Information Officer (or designee), Enterprise Operations organization, and
applicable business owners of any noncompliant server if one or more of the following
conditions apply:
   1. Is identified as operating on the IRS network without being documented as a part of an
      IRS general support system, or having its own security certification, or otherwise being
      authorized/certified to operate by the MITS Cybersecurity organization.
   2. Is not in compliance with the security settings defined in the Internal Revenue Manual
      and Enterprise Operations organization security configuration standard as appropriate for
      the server’s operating system.
   3. Does not have the required server information entered in the Enterprise Operations Server
      Database, including an organization designated as the server owner, the domain to which
      the server belongs (or will belong), the general support system to which the server
      belongs, and a point of contact for the server.
   4. Is a member of an unauthorized domain. Servers in unauthorized domains, as well as the
      domains themselves, are subject to removal from the network.



                                                                                         Page 12
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies



Based on network scans performed by the IRS in November 2010, the Business DNA11 asset
discovery tool identified 772 Windows servers and 238 workstations, in a total of
71 uniquely named domains or groups, residing on the IRS network but outside of the
administrative boundaries established by the Enterprise Operations, Chief Counsel, Criminal
Investigation, Computer Security Incident Response Center, SOI, BSM, and ISRP organizations.
The Business DNA scanning tool identifies computers and other devices that are active on the
network at the point in time the scan occurs. Figure 2 provides a list of unidentified domains or
groups with servers and/or workstations on the IRS network. This list may not be all-inclusive
of servers and workstations residing outside of recognized domains.
                      Figure 2: List of Unidentified Domains or Groups
                      With Servers and/or Workstations on the Network

                             Number of Windows                                         Number of Windows
  Unidentified                                               Unidentified
Domains or Groups          Servers     Workstations        Domains or Groups          Servers     Workstations
ADCW2K                         2              0           METRO1                         4               0
ADPOC                          1              0           METRO2                         5               0
ALARMPOINT                     4              0           METRO3                         1               0
AMSHLD                         0              1           MSHOME                         0               1
ANDOVERSEC                     2              0           MTCNC                          0               1
ASPECTCC                      83              0           MTCSBX                         2               0
BLN004-WG                      4              0           NC                             0               1
CIO                            1              0           NEW                            0               1
CLEARPATH                      2              0           PEDRO                          0               1
DALLAS-LAB                     1              0           PSC003                         4               0
DEVNET                         1              1           PUE75A                         2               0
DTS                           37              0           RESEARCH                       7               0
EA                             3              0           ROADMAP                        7               0
ENCIL                          1              0           ROADMAP2                       3               1
EPPM                           3              0           SBX2                           1               0
GEOIRS                       233              3           SBX2.PRIME.IRS.GOV             1               0
IE-LAB                         1              0           SECURITY                       1               7
INTERVOICE                     1              0           T                              2               0



11
  Business DNA is an asset discovery tool that provides detailed hardware and software configuration information
for all devices connected to the network. The Department of the Treasury recently selected Business DNA as the
enterprise tool for all bureaus to use in information technology asset discovery, inventory, and reporting.
                                                                                                        Page 13
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies




                             Number of Windows                                         Number of Windows
  Unidentified                                               Unidentified
Domains or Groups          Servers     Workstations        Domains or Groups          Servers    Workstations
INTRUSHIELD                    1              0           TACACS-EXT                     2               0
IPT                           16              1          TACACS-INT                      3               0
IPTELEPHONY                    1              0          TEMP                            1               0
IRS                           16              3          TEST                            0               1
IRS_WORKGROUP                  1              0          TMPWORK                         3               6
IRSERAP                        2              0          VDE                             1               0
IRSIPTELEPHONY                 5              4          VELOCITY                        0               1
IRS-IPTELEPHONY                9              0          VGNOC                           2               0
IRS-IPTELEPHONYI               5              0          VOIP                            7               2
IRSKCSC                        2              0          VVV                             0               1
IRSODN001BERBEEI               1              0          W                               0               1
IRSOGDENCCM                    1              0          WG                              0               3
IRSOGDENIPT                    1              0          WORK                            0               1
IRS-TELEPHONY                  2              0          WORKGROUP                      250            193
LAB_TEST                       1              0          WORKGROUPX                      2               0
LMSB                           0              1          WRKGR                           0               1
MDI                            7              0          WW                              0               1
MDI-3166                      10              0                                       Servers     Workstations
TOTALS                                                                                  772            238
Source: Results of Business DNA network scan the IRS performed in November 2010.

We selected a judgmental sample of 12 servers from this list and requested the Enterprise
Operations organization determine whether or not the domains or groups they were residing in
were authorized. Of these 12 servers, the Enterprise Operations organization did not recognize
the domain or group name for 7 of them nor could it determine the owner or purpose of these
servers. The server information had not been entered in the Enterprise Operations organization
Server Database, and none had the Tivoli®12 software installed. At the time Enterprise
Operations organization performed its research on these servers in April 2011, all but one of the
seven servers were still active on the IRS network.




12
  Tivoli is a registered trademark owned by the IBM Corporation. The implementation of Tivoli is part of the IRS
Enterprise Systems Management project encompassing helpdesk operations, network and systems management,
software distribution, asset management, and performance measures analysis and reporting.
                                                                                                        Page 14
                     Continued Centralization of the Windows Environment
                     Would Improve Administration and Security Efficiencies



Enterprise Operations organization officials informed us that valid reasons may exist for some of
these domains and groups, but it would take massive man hours to research them to make this
determination. Valid reasons for keeping computers in separate IRS forests and domains could
include, for example, the need to isolate computers that protect the IRS from internet attacks, or
to contain computers that are too old to operate in an Active Directory environment. Enterprise
Operations organization officials also stated that while they created standards to prevent
unauthorized domains from being created and servers from being connected to the network
without the proper authorization, no central controlling authority over domain creation or
approval exists at the IRS to ensure compliance with Enterprise Operations organization
standards.
A lack of control over domain creation defeats the efficiencies the MITS organization intended
to achieve when implementing one shared administrative boundary for the majority of IRS
resources. In addition, if not part of an approved domain, these servers and workstations may be
at increased risk of noncompliance with IRS security policy, putting the IRS at risk of security
breaches.

Recommendations
The Chief Technology Officer should ensure that:
Recommendation 3: Standards and processes are developed and implemented
enterprise-wide to prevent servers and workstations from being connected to the network
without the proper authorization and required compliance documentation.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       ensure that standards and processes are developed and implemented enterprise-wide to
       prevent servers and workstations from being connected to the network without proper
       authorization and required compliance documentation.
Recommendation 4: Scanning tools, such as the Business DNA, are utilized to locate
unauthorized servers, workstations, and domains on the IRS network, and adequate procedures
are developed and implemented to ensure they are removed.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       use automated scanning tools for asset identification and has been in the process of
       implementing this capability, even prior to this audit. The IRS will also ensure that IRS
       policy addresses the issue of proper handling and potential removal of any unauthorized
       assets found, regardless of how they are discovered.




                                                                                          Page 15
                           Continued Centralization of the Windows Environment
                           Would Improve Administration and Security Efficiencies



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has structured its
Windows environment to provide efficient and secure management of Windows servers. To
accomplish the objective, we:
I.         Evaluated the IRS Active Directory environment to determine whether its structure
           provided efficient and secure management of Windows servers.
           A. Determined whether the IRS effectively controlled the creation of Active Directory
              forests1 in its Windows environment.
               1. Obtained IRS Windows servers inventory and forest design data from the IRS
                  personnel responsible for managing them.
               2. Documented the IRS Windows environment, including the number of forests,
                  domains, and Windows servers.
           B. Interviewed IRS personnel responsible for currently known forests and made a
              conclusion on whether each met IRS criteria for establishing a forest.
               1. Determined whether each forest was considered appropriate by the MITS
                  Enterprise Services, System Architecture and Engineering organization.
               2. Determined whether each forest met IRS criteria for establishing a separate forest.
           C. Obtained Business DNA scan data and analyzed the additional forests, domains, and
              servers it identified.
               1. Interviewed IRS staff to determine whether the additional forests, domains, and
                  servers identified by the Business DNA scan data were authorized.
               2. Selected a sample of 12 servers from the population of 772 servers that the
                  Business DNA scan identified that were not included in the inventory listings of
                  servers provided by the IRS. We judgmentally selected the 12 servers due to time
                  constraints and the time-intensive research required to determine whether or not
                  the forests, domains, or groups they were residing in were authorized.
               3. Determined the causes that allowed the creation of any unauthorized forests,
                  domains, and servers.


1
    A forest is the outermost design element or boundary in an Active Directory.
                                                                                             Page 16
                    Continued Centralization of the Windows Environment
                    Would Improve Administration and Security Efficiencies



           4. Determined the effects any unauthorized forests, domains, and servers had on the
              IRS Windows environment.
       D. Determined whether the IRS had adequate policy for controlling the creation of
          Windows forests.
           1. Obtained current IRS policy for the creation of forests and determined whether it
              was adequate to control the creation of unnecessary forests.
           2. Interviewed IRS staff to determine why the IRS policy for the creation of forests
              was not complete or adequate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policy and procedures for Windows
server security and creation of Active Directory infrastructure. We evaluated these controls by
interviewing IRS personnel, reviewing Active Directory design documents, obtaining Windows
server inventories, and analyzing network scan data.




                                                                                         Page 17
                   Continued Centralization of the Windows Environment
                   Would Improve Administration and Security Efficiencies



                                                                             Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security & Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
George Franklin, Senior Auditor
Midori Ohno, Senior Auditor
Ashley Weaver, Auditor
Elton Jewell, Information Technology Specialist




                                                                                        Page 18
                   Continued Centralization of the Windows Environment
                   Would Improve Administration and Security Efficiencies



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis and Statistics RAS
Chief Counsel CC
Chief, Criminal Investigation SE:CI
National Taxpayer Advocate
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Statistics of Income RAS:S
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OSCFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 19
                        Continued Centralization of the Windows Environment
                        Would Improve Administration and Security Efficiencies



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $1,200,000 in contract fees (see page 4).

Methodology Used to Measure the Reported Benefit:
From July 2010 to July 2011, the IRS spent $1,200,000 on a contract with the IBM Corporation
to provide computer equipment that serves to authenticate users to the IFS1 application. The
computers are primarily Windows 2000 servers. The Microsoft Corporation ended support for
Windows 2000 servers in July 2010 and no longer issues patches to protect the servers from
known vulnerabilities. Consequently, the IRS has spent $1,200,000 to maintain obsolete servers
that are a high security risk.




1
 The IFS manages the IRS’s $11.4 billion operating budget for administering tax payments, collection, and
enforcing tax laws.
                                                                                                        Page 20
      Continued Centralization of the Windows Environment
      Would Improve Administration and Security Efficiencies



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 21
Continued Centralization of the Windows Environment
Would Improve Administration and Security Efficiencies




                                                     Page 22
Continued Centralization of the Windows Environment
Would Improve Administration and Security Efficiencies




                                                     Page 23
Continued Centralization of the Windows Environment
Would Improve Administration and Security Efficiencies




                                                     Page 24
